    OFFICE OF INSPECTOR GENERAL




              AUDIT OF THE
U.S. INTERNATIONAL TRADE COMMISSION'S
      PURCHASE CARD PROGRAM

             Audit Report
             OIG-AR-OI-03




                            January 28, 2003
INSPECTOR GENERAL




UNITED STATES INTERNATIONAL TRADE COMMISSION

                         WASHINGTON, D.C. 20436
                                                           IG-AA-002
January 28, 2003

MEMORANDUM

 TO:    THE COMMISSION

We hereby submit Audit Report No. OIG-AR-OI-03, Audit ofthe U.S.
International Trade Commission's Purchase Card Program. We performed
this audit at the Chairman's request to determine if internal controls were
sufficient to monitor and adequately control purchase card expenditures.

 We found no instances of fraud, and the Program generally operated as the
 Commission prescribed. Purchase Card Holders (cardholders) received
 training on the use of the card, each cardholder and supervisor approved the
 monthly statement for payment, and a card was cancelled when the cardholder
 separated from the Commission.

 Action should be taken, however, to strengthen the Purchase Card Program.
 We made two recommendations to (1) improve controls over split purchases
 and (2) clarify the beginning and ending dates of the 30-day purchase limit
 cycle. The Commission concurred with our findings, and the planned actions
 met the intent of the recommendations.

 We appreciate the courtesies and cooperation provided to our auditors during
 this audit.                                                    i




                                                           ~~'~-eJ/~~~
                                                                         -r>
                                                            Kenneth F. Clarke
                                                            Inspector General
Audit ofthe U.S. International Trade Commission's
Purchase Card Program                                                         OIG-AR-O 1-03

T ABLE OF CONTENTS

  I.      SUMMARY OF RESULTS                                                                      1

  II.     BACKGROUND                                                                             .1

  III.    OBJECTIVE                                                                               2

  IV.     METHODOLOGY & SCOPE                                                                     3

  V.      DETAILS OF RESULTS                                                                     .,4

          A. Official Policies And Procedures Were Generally Effeetive                           .4


          B. Oversight Of The Purchase Card Program Should Be Strengthened .........5

               Recommendation                                                                     7
               Management Response                                                                7
               OIG Comment                                                                        7


          C. Time Period Of The 3D-Day Limit Needs To Be Defined                                  7

               Recommendation                                                                     8
               Management Response                                                                8
               OIG Comment                                                                        8


  Appendix A - Management Response                         .,                                    .,9




                                                     Office ofInspector General
                                                                     •
                                                            U.S.lnremational Trade Cosrurnsnoo
Audit of the U.S. International Trade Commission's
Purchase Card Program                                                                OIG-AR-O 1-03


I.         SUMMARY OF RESULTS

At the Chairman's request, we audited the U. S. International Trade Commission's
(Commission/ITC) Purchase Card Program to determine if internal controls were
sufficient to monitor and adequately control purchase card expenditures. We found no
instances of fraud, and the Program generally operated as the Commission prescribed.
Purchase Card Holders (cardholders) received training on the use of the card, each
cardholder and supervisor approved the monthly statement for payment, and a card was
cancelled when the cardholder separated from the Commission.

The Commission should further strengthen the Purchase Card Program by implementing
our recommendations to (1) improve controls over split purchases and (2) clarify the
beginning and ending dates of the 3D-day purchase limit cycle. The Commission agreed
with the recommendations, and management's complete response is presented as
Appendix A of this report.


II.        BACKGROUND

The National Performance Review encouraged federal agencies to streamline or make
more efficient purchase methods. Use of a government-sponsored purchase card
achieves these goals by reducing the use of Purchase Orders and Blanket Purchase
Agreements and eliminating Imprest Funds.

From February 2001 through February 2002, the Commission had approximately 1,441
purchase card transactions totaling $1.9 million. The Commission issued 18 purchase
cards and assigned each cardholder with the following single purchase limit: 2 at
$100,000; 1 at $50,000; and the remaining 15 at $2,500. Additionally, each cardholder
was assigned a 30-day limit. The 30-day limit can vary depending on the written terms
as stated on each individual's "Certificate of Appointment." For example, a cardholder
could have a single purchase limit of $2,500 and a 30-day limit of $25,000. Cardholders
with a single purchase limit greater than $2,500 were restricted to Contracting Officers,
who were required to have more intense and frequent training.

Guidelines on the use and administration of the Purchase Card Program were contained
in the ITC Purchase Card Holder's Handbook, dated January 7,2000, and issued by the
Office of Administration. The Handbook assigned the following responsibilities to each
Purchase Card Program participant:

     ~   Purchase Card Holder (cardholder) - An officially designated government agent;
         therefore the cardholder must comply with applicable responsibilities prescribed in
         the Federal Acquisition Regulations (FAR), particularly the responsibility for
         obtaining competition and approved funding certification prior to making a
         purchase. Each cardholder is provided a card bearing the cardholder's name, and
         use of the card is restricted to the individual named. The cardholder's

                                                            Office ofInsDector General
                                                                            1
                                                                   u.s. Inrcmationsd Trade CommiSSion
                                                1
Audit of the U.S. International Trade Commission's
Purchase Card Program                                                                OIG-AR-O 1-03

        responsibilities also include maintaining official records and reconciling to the
        monthly statement of account, which lists the individual's credit card activity.

 ~      Contracting Officer (CO) - An officially designated government agent, the CO is
        provided a card bearing the CO's name, and the same responsibilities apply as the
        above discussed cardholder. However, the CO's single purchase limit is greater
        than the $2,500 granted to a cardholder. Therefore, the CO can make purchases on
        the cardholder's behalf if the single purchase exceeds $2,500, or if the purchase
        would cause the cardholder to exceed the assigned 30-day limit.

  ~     Cost Center Manager ~ Reviews requests and certifies the availability of funds.

  ~      Approving Official- Reviews and certifies the cardholder's monthly statement of
       . 'account reflects only purchases that were authorized and made in accordance with
         the FAR and internal policies and procedures.

  ~     Office of Finance - Makes payments to the purchase card provider based on
        authorized purchases certified on the Approving Officials' statements.

  ~     Office of Facilities Management - Receives all incoming goods valued in excess of
        $2,500 and services, unless direct receipt was delegated (e.g., Library for books).
        The cardholder is informed upon receipt and forwarded all applicable materials and
        documents.

  ~      Purchase Card Program Official- Serves as the Contracting Officer's Technical
         Representative for the Purchase Card Program, is the focal point for coordination of
       . the applications, issuance, and destruction of cards, and recommends single and 30-
         day purchase limits.

  ~     Purchase Card Oversight Officer - Reviews 50 percent of cardholders' official
        records every 6 months for adherence to procurement policies and procedures.


III.      OBJECTIVE

The specific objectives of our audit were to determine whether the Commission:

  ~     Established and communicated purchase card requirements and procedures to all
        cardholders, including approving officials; and

  ~     Implemented sufficient internal controls to monitor and adequately control purchase
        card expenditures.




                                                            Office ofInspector General
                                                                  U'S. International Trade Commission
                                                2
Audit ofthe U.S. InternationalTrade Commission's
Purchase Card Program                                                               OIG-AR-O 1-03


IV.     METHODOLOGY AND SCOPE

We engaged Bert Smith & Co. (Independent Public Accountants) to assist in conducting
this audit. Fieldwork took place between May 2002 and August 2002. The audit scope
covered purchase card purchases from February 2001 through February 2002.

We reviewed applicable policies and procedures and interviewed cardholders, supervisors
and administrative personnel to identify and evaluate the Commission's implementation
of the Purchase Card Program. We also determined whether the card was promptly
cancelled when a cardholder separated from the Commission. Specifically, we evaluated:

 ~    Internal control policies and procedures, which included examining 40 1 purchases
      made with purchases cards. We tested for:

        o   Proper approval;
        o   Purchase was allowable;
        o   Support for the merchandise/service;
        o   Receipt of the merchandise, if applicable; and
        o   Prompt payment.

 ~    All credit card activity reported on the monthly statements. Based on inquiry,
      observations and review of the activity, we examined supporting documentation as
      well as physically inspected 121 purchases that appeared questionable, such as
      purchases:

        o   That appeared to be duplicate;
        o   Dated Sunday or Saturday;
        o   Greater than $6,000 in value;
        a   That appeared to be split into more than one transaction; and
        a   Repetitively placed with the same vendor.

The audit was conducted in accordance with Government Auditing Standards, 1994
Revision, as amended, promulgated by the Comptroller General of the United States.




I The sample of 40 was randomly selected from the monthly statements by use of Excel random
generation, and was based on a 90 percent confidence level and a 10 percent error rate. The
populationincluded 1,441 purchase card transactions from the monthly statementsof all credit
card activity for the period under examination.

                                                             Office ofInsoector
                                                                           ,           General
                                                                   us Intemstionsd Trade Commission
                                              3
Audit ofthe U.S. International Trade Commission's
Purchase Card Program                                                                OIG-AR-O 1-03


v.     DETAILS OF RESULTS

       A. Official Policies And Procedures Were Generally Effective

Overall, Purchase Card Program participants followed established policies and
procedures. Prior to receiving a government-issued purchase credit card, the employee
obtained training on the proper use of the purchase card. Additionally, the Commission
provided guidance, through the ITC Purchase Card Holder's Handbook, as to the
responsibilities of each Program participant, procedures to be followed by type and dollar
amount of purchase, and a list of items prohibited from being procured. The Handbook
also stressed that each cardholder was to follow the FAR, and use of the card was
restricted to the designated cardholder.

The Purchase Card Program participants effectively implemented the Handbook internal
controls. Each cardholder and supervisor approved the individual monthly statement to
authorize payment, and the card was cancelled when a cardholder separated from the
Commission. Also, twice yearly the Purchase Card Oversight Office~ performed quality
reviews ofhalfthe 15 cardholders having a $2,500 limit. The last three reviews were
performed May 2001, November 2001, and May 2002. The Oversight Officer advised
that after working with the cardholder under review, the reviewer had identified nothing
significant.

Proper approval was obtained; purchases were allowable; support for the
merchandise/service was maintained; and payment was timely paid to the credit card
company. For transactions reported on the monthly bank statements as occurring on a
Saturday or a Sunday, we determined that the orders were actually placed on a weekday.
Furthermore, our physical verification of procured equipment revealed no evidence that
items were obtained for other than official government use.

While the Commission's efforts are commendable, further actions are needed to
strengthen the Purchase Card Program. We found instances where cardholders split
orders with an aggregate value of more than their designated single purchase limit. Also,
the 30-day limit was not consistently applied because the time frame was not defined as
to whether it was based on the monthly bank statement's cycle or the calendar. Further
details on these two issues are provided in sections Band C, respectively.




2 The Oversight Officer did not review the official records of self-initiated purchase card
transactions or those of the other COs. Instead, the Director of the Office of Facilities
Management reviewed the Oversight Officer's and COs' purchase card records.

                                                          Oflice ofInsvector
                                                                      ,      General
                                                                 U,,--';. lntcmotionsl Trsdr Commission
                                             4
Audit ofthe U.S. International Trade Commission's
Purchase Card Program                                                              OIG-AR-OI-03



       B. Oversight Of The Purchase Card Program Should Be Strengthened

Four cardholders, each with a single purchase limit of $2,500, split purchases into more
than one transaction. Our review of activity from February 2001 to February 2002
identified 17 purchases placed with 6 vendors by the 4 cardholders which, based on the
relatively close purchase date and dollar amount of each transaction, appeared to be
broken into multiple transactions. When viewing each transaction individually, the
designated single purchase dollar limit was not exceeded; but, when viewing similar
transactions as an aggregate, the designated single purchase dollar limit was exceeded.
We interviewed the four cardholders and found that two individuals deliberately split the
transactions; the remaining two were unaware of the limit.

FAR Subpart 13.003 prohibits breaking down requirements aggregating more than the
designated threshold into several purchases that are less than the applicable threshold
merely to-

       (1) Permit use of simplified acquisition procedures; or

       (2) Avoid any requirement that applies to purchases exceeding the threshold.

Details of the 17 purchases are presented below in Table 1.

            PURCHASE
           CARDHOLDER              DATE             AMOUNT         VENDOR
                A                 08-Feb-02          $ 2,098.20
                                  12-Feb-02            2.098.20
                                                       4,196.40

                    B             I5-Mar-Ol            1,755.00           2
                                  15-Mar-OI            1,755.00
                                  20-Mar-Ol            2,295.00
                                                       5,805.00

                    B             30-Mar-OI            2,299.95           3
                                  02-Apr-OI            2,382.60
                                                       4,682.55

                    C             14-Sept-Ol           1,380.02           4
                                  14-Sept-01           1,199.00
                                  14-Sept-01           1.495.00
                                                       4,074.02




                                                           Office ofInsvector
                                                                       ..     General
                                                                  us. Irxemotionsl Trade Commission
                                               5
Audit of the U.S. International Trade Commission's
Purchase Card Program                                                              OIG-AR-01-03

Table (continued)



             PURCHASE
            CARDHOLDER              DATE             AMOUNT         VENDOR
                D                 27-Sept-0l              52.03        5
                                  27-Sept-Ol             833.09
                                  27-Sept-01           1,394.17
                                  27-Sept-Ol           1,480.38
                                  28Sept-Ol            1,273.11
                                                       5,032.78

                    D              31-Jan-Ol            1,500.00          6
                                   3l-Jan-Ol            1,500.00
                                                        3,000.00
                                                                        Table 1

Quality reviews were not structured to identify possible split purchases. In performing
the review, the reviewer scanned purchases entered into the automated procurement
support system to verify that no one purchase exceeded $2,500. The reviewer then
selected a sample of transactions and obtained the supporting documentation. The
quality reviews did not include noting the dates of the purchases and the applicable
vendors. A review of this nature could uncover purchases that appear to be split and a
determination could be made as to the appropriate course of action.

One course of action is to remind the cardholder of the requirement to forward the
procurement request to a CO with a higher single purchase limit. The Commission could
also consider increasing a cardholder's single purchase limit based on the Office's needs
or assigning a CO to submit orders to certain vendors. A prime example for
reconsideration is in the Commission's Library. The Library is responsible for
purchasing books, publications and subscriptions for the entire agency. Individuals
requiring a specific item to be purchased send their request to the Library, and the request
is processed as soon as possible. Of the transactions listed in Table I, three cardholders
were assigned to the Library.

Competition was not an issue even though a split purchase could be viewed as a means to
avoid the requirement of competition in the case of the above-discussed transactions with
the six vendors. Five of the vendors were sole providers of the goods purchased;
therefore, the purchases did not require competition. For the purchases placed with the
remaining vendor, the cardholder researched the cost of the product from a number of
vendors prior to placing the orders.




                                                            Omce ofInspector General
                                                                   us Inrem;a'onal Trade Commission
                                               6
Audit of the U.S. International Trade Commission's
Purchase Card Program                                                             OIG-AR-O 1-03


Recommendation 1:
The Office of Administration Director should: (a) expand internal quality review
procedures to include a determination on whether purchases were split and take action
when a violation is identified, and (b) remind cardholders and approving officials that
splitting orders when the aggregate cost will exceed the cardholder's designated dollar
limit is prohibited.

Management Response:
The Office of Administration agrees with the intent of this recommendation. The Director
of the Office of Facilities Management has instructed the reviewing officials to expand
their internal quality review procedures to include a determination on whether purchases
were split and to take the appropriate action when a possible violation is identified. Also,
the Office of Facilities Management reviewing official will provide each cardholder with
documentation prohibiting the splitting of orders and will have each cardholder sign for
receipt of the document. In addition, the Director of Administration will ensure that the
"ITC Purchase Card Holder's Handbook" (Appendix 3) is updated to address the
prohibition against splitting purchase orders in order to avoid spending limits.

These actions will be completed by March I, 2003.

OIG Comment:
When accomplished, the above actions will meet the intent of Recommendation 1.


        c.   Time Period Of The 30-Day Limit Needs To Be Defined

The Commission assigned to each cardholder a 30-day purchase limit but did not define
the time period the 30 days covers. We found that cardholders used their own judgment
in deciding when the 30-day limit ran (i.e., calendar date or statement date). If defined as
calendar date, 3 of the 18 cardholders exceeded their limit. However, if the period is
                                                        nd
based on the credit card statement cycle (ending the 22 of each month), only one of the
three exceeded the limit. According to these three employees, two interpreted the time
period as based on the statement cycle, and one did not focus on the 30-day limit at all.
To reduce the risk of credit card abuse, the Commission needs to clearly convey the
purchase card requirements for its cardholders.




                                                          Office ofInspector Genera!
                                                                          1
                                                                 US Internstionsl 'Trade Commission
                                              7
Audit of the u.s. International Trade Commission's
Purchase Card Program                                                               OIG-AR-O 1-03


The difference between the two interpretations of the 3D-day period is presented below in
Table 2.

 PURCHASE         30-DAY       CALENDAR          LIMIT  STATEMENT                      LIMIT
CARDHOLDER        LIMIT          CYCLE         EXCEEDED   CYCLE                      EXCEEDED
     I              $2,500          Sept-O1            226.13    22-Sept-01                   226.13
                                     Oct-Ol          1,975.06     22-0ct-01                 1,975.06

      2             $5,000          Sept-O1           523.29     22-Sept-01                           0

      3             $8,000          Mar-Ol           2793.93      22-Mar-OI                           0
                                                                                  Table 2

Recommendation 2:
The Office of Administration Director should: (a) define the time period the 30-day
purchase limit covers and communicate the definition to each cardholder in writing, and
(b) expand the internal quality review procedures to include a determination on whether
the assigned 30-day purchase limit was exceeded and take action when a violation is
identified.

Management Response:
The Commission agreed with this recommendation. The Director of Finance has
confirmed that the 30-day purchase card cycle begins on the 23 rd day of each month and
will provide a written reminder to all cardholders and approving officials that purchase
limits should not be exceeded during this period. In addition, reviewing officials in the
Office of Facilities Management will be instructed to determine during quality control
reviews whether the purchase limit was exceeded during the billing cycle, determine the
cause for an exceeded limit, if found, and to follow-up with appropriate action, if
necessary.

 These actions will be completed by March I, 2003.

 OIG Comment:
 When accomplished, the above actions will meet the intent of Recommendation 2.




                                                          Office ofInspector General
                                                                u.s. International Trade Commission
                                              8
                                                      APPENDIX A




UNITED STATES INTERNATIONAL TRADE COMMISSION

                            WASHINGTON, DC 20436


January 22, 2003                                              AD-AA-09

MEMORANDUM

TO:            Inspector General

FROM:          Stephen A. McLaughlin, Director
               Office of Administration           .--~"-"'~


SUBJECT:       Response to Draft Report: U.S. International Trade
               Commission's Purchase Card Program Audit

This memorandum is the Office of Administration's response to the draft report:
 U.S. International Trade Commission's Purchase Card Program Audit, and
includes the action plan for implementing recommendations I and 2.

Recommendations

1. The Office of Administration Director should: (a) expand internal quality
review procedures to include a determination on whether purchases were split
and take action when a violation is identified, and (b) remind cardholders and
approving officials that splitting orders when the aggregate cost will exceed the
cardholder's designated dollar limit is prohibited.

Response: Agree

The Office of Administration agrees with the intent of this recommendation.
The Director of the Office of Facilities Management has instructed the
reviewing officials to expand their internal quality review procedures to include
a determination on whether purchases were split and to take the appropriate
action when a possible violation is identified. Also, the Office of Facilities
Management reviewing official will provide each card holder with
documentation prohibiting the splitting of orders and will have each card holder
sign for receipt of the document. In addition, the Director of Administration will
                                       2

ensure that the "ITe Purchase Card Holder's Handbook" (Appendix 3) is
updated to address the prohibition against splitting purchase orders in order to
avoid spending limits.

These actions will be completed by March 1,2003.

2. The Office of Administration Director should: (a) definethe time period the
30-day purchase limit covers and communicate the definition to each
cardholder in writing, and (b) expand the internal quality review procedures to
include a determination on whether the assigned 30-day purchase limit was
exceeded and take action when a violation is identified.

Response: Agree

The Director of Finance has confirmed that the 30-day purchase card cycle
begins on the 23'd day of each month and will provide a written reminder to all
cardholders and approving officials that purchase limits should not be exceeded
during this period. In addition, reviewing officials in the Office of Facilities
Management will be instructed to determine during quality control reviews
whether the purchase limit was exceeded during the billing cycle, determine the
cause for an exceeded limit, if found, and to followup with appropriate action,
if necessary .

These actions will be completed by March 1,2003.




APprove:<V9                                  Disapprove:        _




~~Okun                                               Date


cc:    Office of Finance
       Office of Facilities Management
